______________________________________________________________________________
FOR IMMEDIATE RELEASE                                                     CRM
THURSDAY, OCTOBER 20, 2011                                       (202) 514-2007
WWW.JUSTICE.GOV                                              TTY (866) 544-5309

  TEXAS RESIDENT SENTENCED TO 24 MONTHS IN PRISON FOR SCHEME TO
               DEFRAUD THE U.S. EXPORT-IMPORT BANK

        WASHINGTON – An El Paso, Texas, resident was sentenced today to 24 months in
prison for his role in a scheme to defraud the Export-Import Bank of the United States (Ex-Im
Bank) of more than $3.6 million.

       The sentence was announced by Assistant Attorney General Lanny A. Breuer of the
Criminal Division; U.S. Attorney Robert Pitman of the Western District of Texas; Osvaldo L.
Gratacos, Inspector General of the Ex-Im Bank; Special Agent in Charge Manuel Oyola-Torres
of Homeland Security Investigations (HSI) in El Paso; Special Agent in Charge Rebecca
Sparkman of the Internal Revenue Service-Criminal Investigation (IRS-CI) in Washington, D.C.;
and Inspector in Charge Daniel S. Cortez of the U.S. Postal Inspection Service (USPIS) in
Washington, D.C.

         Gilberto Baez-Garcia, 35, was also sentenced by Judge Kathleen Cardone in U.S. District
Court in El Paso to five years of supervised release and was ordered to pay $ 3,614,594 in
restitution and $ 3,614,977 in forfeiture. Baez pleaded guilty on May 11, 2011, to conspiracy to
commit wire and bank fraud, conspiracy to launder money and bank fraud. Baez admitted that
he participated in a scheme to defraud the Ex-Im Bank of more than $3.6 million. Baez most
recently resided in El Paso. He was arrested on June 4, 2010.

         According to court documents, Baez was the co-owner of Valcomar Inc., an export
company located in El Paso that purported to be in the business of exporting U.S. manufactured
goods to Mexico. During his plea hearing, Baez admitted that he and another El Paso exporter
created false documents so Baez could obtain a fraudulent Ex-Im Bank loan, which resulted in a
$1,016,126 loss to the government. Baez also admitted that he and his co-conspirators assisted
others to obtain fraudulent Ex-Im loans, which resulted in more than $2 million in losses to the
government. According to court records, all of the Ex-Im loans involving Baez were fraudulent
and Baez and others stole the loan proceeds by transferring funds to Mexico and elsewhere. As a
result, the loans went into default and caused the Ex-Im Bank to pay claims losses to the lending
banks in the amount of $3,614,594.

         Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing mechanisms
to help foreign buyers purchase U.S. goods and services.
        The case is being prosecuted by Trial Attorneys Patrick Donley and William Bowne of
the Criminal Division’s Fraud Section and Assistant U.S. Attorney Steven Spitzer of the Western
District of Texas, El Paso Office. The case was investigated by the Ex-Im Bank Office of
Inspector General, HSI, IRS-CI and USPIS.

                                             ###

11-1387

IF YOU HAVE QUESTIONS, PLEASE USE THE CONTACTS IN THE MESSAGE OR CALL THE OFFICE OF
PUBLIC AFFAIRS AT 202-514-2007.
